      Written Testimony of H. David Kotz
            Inspector General of the
      Securities and Exchange Commission




             Before the U.S. Senate
Committee on Banking, Housing and Urban Affairs

         Thursday, September 10, 2009
                  2:30 p.m.
                                       Introduction

       Good afternoon. Thank you for the opportunity to testify today before this

Committee on the subject of “Oversight of the SEC’s Failure to Identify the Bernard L.

Madoff Ponzi Scheme and How to Improve SEC Performance” as the Inspector General

of the Securities and Exchange Commission (SEC). I appreciate the interest of the

Chairman, as well as the other members of the Committee, in the SEC and the Office of

Inspector General (OIG). In my testimony today, I am representing the OIG, and the

views that I express are those of my Office, and do not necessarily reflect the views of the

Commission or any Commissioners.

       Since being appointed as the Inspector General of the SEC in December 2007, my

Office has issued numerous audit and investigative reports involving issues critical to

SEC operations and the investing public. These have included comprehensive audit

reports on important topics such as the factors that led to the collapse of Bear Stearns, the

Division of Enforcement’s (Enforcement) efforts pertaining to complaints about naked

short selling, and the SEC’s oversight of credit rating agencies. We have also issued

investigative reports regarding a wide range of allegations including claims of improper

securities trading by SEC employees, preferential treatment given to high-level securities

industry officials, retaliatory termination, Enforcement’s failure to vigorously pursue an

investigation, and perjury by supervisory Commission attorneys.

                      Request to Undertake Madoff Investigation

       On the late evening of December 16, 2008, former SEC Chairman Christopher

Cox contacted me and asked my Office to undertake an investigation into allegations

made to the SEC regarding Bernard L. Madoff (Madoff), who had just confessed to




                                              1
operating a multi-billion dollar Ponzi scheme, and the reasons why the SEC had found

these allegations to be not credible.

                      Commencement of our Madoff Investigation

       We began our investigation immediately. On December 18, 2008, we issued a

document preservation notice to the entire SEC, stating that the OIG had initiated an

investigation regarding all Commission examinations, investigations or inquiries

involving Madoff, and/or any related individuals or entities. We formally requested that

each SEC employee and contractor preserve all electronically-stored information and

paper records related to Madoff in their original format.

       We also took immediate steps to begin gathering evidence. On December 17,

2008, we initiated our first request for e-mail records from the SEC’s Office of

Information Technology (OIT). Over the course of the investigation, the OIG made

numerous requests from OIT for e-mails, including: (1) all e-mails of former Office of

Compliance Inspections and Examinations (OCIE) employee Eric Swanson during his

tenure with the SEC; (2) all e-mails of six staff members who were involved in the SEC’s

investigation of the Madoff firm that was initiated in 2006 for the period from January

2006 through January 2008; (3) all e-mails for SEC Headquarters, New York Regional

Office (NYRO) and Boston Regional Office (BRO) staff members from January 1, 1999,

through December 11, 2008, that contained the word “Madoff”; (4) additional e-mails for

approximately 68 current and former SEC employees for various time periods relevant to

the investigation, ranging from 1999 to 2009. In all, we estimate that we obtained and

searched approximately 3.7 million e-mails during the course of our investigation.




                                             2
       On December 24, 2008, we sent comprehensive document requests to both

Enforcement and OCIE, specifying the documents and records we required to be

produced for the investigation. We followed up with memoranda to OCIE in April, May

and June of 2009. We also had follow-up communications with Enforcement on January

21, 2009 and July 22, 2009. We further had numerous e-mail and telephonic

communications with both OCIE and Enforcement regarding the scope and timing of the

document requests and responses, as well as meetings to clarify and expand the document

requests as necessary.

       We collected all the information produced in response to our document

production request. We then carefully reviewed and analyzed the investigative records of

all SEC investigations conducted relating to Madoff, the Madoff firm, members of

Madoff’s family, and Madoff’s associates from 1975 to the present.

       During the investigation, we also reviewed the workpapers and examination files

of nine SEC examinations of Madoff’s firms from 1990 to December 11, 2008. Where

documents from the examinations were not available, we sought testimony and conducted

interviews of current and former SEC personnel who had worked on the examinations.

       We also sought information and documentation from third parties in order to

undertake our own analysis of Madoff’s trading records. During the course of the OIG

investigation, we requested and obtained records from: (1) the Depository Trust

Company (DTC) relating to position reports for Madoff’s firm; (2) the National

Securities Clearing Corporation (NSCC) relating to clearing data records for executions

effected by Madoff’s firm; and (3) the Financial Industry Regulatory Authority (FINRA)

Order Audit Trail System data (OATS) submitted by Madoff’s firm for six National



                                           3
Association of Securities Dealers Automated Quotations (NASDAQ)-listed stocks and

the NASDAQ Automated Confirmation of Transactions (ACT) database for a trading

period in March of 2005.


                                  Retention of Experts

       In order to assist us in the Madoff investigation, we retained two sets of outside

consultants. In February 2009, we retained FTI Consulting, Inc. (FTI engagement team)

to assist with the review of the examinations of Madoff and his firms that were conducted

by the SEC. Members of the FTI engagement team engaged by the OIG included Charles

R. Lundelis, Jr., Senior Managing Director, Forensic and Litigation Consulting; Simon

Wu, Managing Director, Forensic and Litigation Consulting; John C. Crittenden III,

Managing Director, Corporate Finance Group; and James Conversano, Director, Forensic

and Litigation Consulting. Each individual member of the FTI engagement team brought

a unique and specialized experience to the analyses that FTI engagement team conducted,

including expertise in complex financial fraud investigations, securities-related

inspections and examinations, hedge fund operations, cash flow analysis and valuations,

market regulation rules, market structure issues, accounting fraud, investment suitability,

the underwriting process and compliance and due diligence practices.

       At our direction, the FTI engagement team conducted a thorough review of all

relevant workpapers and documents associated with the OCIE examinations of Madoff’s

firm, scrutinized the conduct of the Madoff-related SEC examinations and investigations,

and analyzed whether the SEC examiners overlooked red flags that could have led to the

discovery of Madoff’s Ponzi scheme. The FTI engagement team also replicated aspects of




                                             4
the OCIE cause examinations of Madoff to determine whether the SEC sought the

appropriate information in the examinations and analyzed that information correctly.

       In addition, OIT advised us during the course of our investigation that there were

substantial gaps in the e-mails we were seeking to review as part of our investigation

because of failures to back up tapes, hardware or software failures during the backup

process, and/or lost, mislabeled or corrupted tapes. In order to ensure that we were able

to conduct a thorough and comprehensive investigation, in June 2009, we retained the

services of First Advantage Litigation Consulting Services (First Advantage) to assist us

in the restoration and production of relevant electronic data. First Advantage’s team had

significant experience in leading numerous large-scale electronic discovery consulting

projects, as well as assisting with highly sensitive and confidential investigations for

corporations and the Federal Bureau of Investigation.

         In connection with its retention on the Madoff investigation, First Advantage

provided consulting and technical support to the OIG and the SEC, and was able to

successfully preserve and restore potentially relevant data within the universe of

electronic data we had requested from OIT. As a result, we were able to review

additional Madoff-related e-mails that were pertinent to our investigation.

          Testimony and Interviews Conducted in the Madoff Investigation

       We also conducted 140 testimonies under oath or interviews of 122 individuals

with knowledge of facts or circumstances surrounding the SEC’s examinations and/or

investigations of Madoff and his firms. We interviewed all current or former SEC

employees who had played any significant role in the SEC’s significant examinations and

investigations of Madoff and his firms over a period spanning approximately 20 years.




                                              5
                            The OIG’s Investigative Team

       I think it appropriate to acknowledge the extraordinary efforts of the OIG

Investigative team that I have been honored to lead in conducting this important

investigation. These included Deputy Inspector General Noelle Frangipane, Assistant

Inspector General for Investigations David Fielder, and Senior Counsels Heidi Steiber,

David Witherspoon and Christopher Wilson. Additional assistance was provided to this

investigation by my Assistant, Roberta Raftovich, in coordinating many of the

administrative aspects of compiling the report. Without the incredible devotion and

exceptional work of these individuals, we would not have been able to complete this

investigation and present a thorough and comprehensive report within such a short period

of time.

                 Issuance of Comprehensive Report of Investigation

       On August 31, 2009, we issued to the Chairman of the SEC a comprehensive

report of investigation (ROI) in the Madoff matter containing over 450 pages of analysis.

The ROI detailed the SEC’s response to all complaints it received regarding the activities

of Madoff and his firms, and traced the path of these complaints through the Commission

from their inception, reviewing what, if any, investigative or examination work was

conducted with respect to the allegations. Further, the ROI assessed the conduct of

examinations and/or investigations of Madoff and his firm by the SEC and analyzed

whether the SEC examiners or investigators overlooked red flags (which other entities

conducting due diligence may have been identified) that could have led to a more

comprehensive examination or investigation and possibly the discovery of Madoff’s

Ponzi scheme.




                                            6
       Our ROI also analyzed the allegations of conflicts of interest arising from

relationships between any SEC officials or staff and members of the Madoff family. This

included an examination of the role that former SEC OCIE Assistant Director Eric

Swanson (Swanson), who eventually married Madoff’s niece Shana Madoff, may have

played in the examination or other work conducted by the SEC with respect to Madoff or

related entities, and whether such role or relationship in any way affected the manner in

which the SEC conducted its regulatory oversight of Madoff and any related entities.

       We have also considered the extent to which the reputation and status of Madoff

and the fact that he served on SEC Advisory Committees, participated on securities

industry boards and panels, and had social and professional relationships with SEC

officials, may have affected Commission decisions regarding investigations,

examinations and inspections of his firm.

                          Results of the Madoff Investigation

       The OIG investigation found that between June 1992 and December 2008 when

Madoff confessed, the SEC received six substantive complaints that raised significant red

flags concerning Madoff’s investment adviser operations and should have led to

questions about whether Madoff was actually engaged in trading. We also found that the

SEC was aware of two articles regarding Madoff’s investment operations that appeared in

reputable publications in 2001 and questioned Madoff’s unusually consistent investment

returns.

       Our report concluded that notwithstanding these six complaints and two articles,

the SEC never conducted a competent and thorough examination or investigation of




                                             7
Madoff for operating a Ponzi scheme and that, had such a proper examination or

investigation been conducted, the SEC would have been able to uncover the fraud.

       The first complaint, which was brought to the SEC’s attention in 1992, related to

allegations that an unregistered investment company was offering “100%” safe

investments with high and extremely consistent rates of return over significant periods of

time to “special” customers. The SEC actually suspected the investment company was

operating a Ponzi scheme and learned in its investigation that all of the investments were

placed entirely through Madoff and consistent returns were claimed to have been

achieved for numerous years without a single loss.

       The second complaint was very specific, and different versions of it were

provided to the SEC in May 2000, March 2001 and October 2005. The complaint

submitted in 2005 was entitled, “The World’s Largest Hedge Fund is a Fraud,” and

detailed approximately 30 red flags indicating that Madoff was operating a Ponzi scheme,

a scenario it described as “highly likely.” These red flags included the impossibility of

Madoff’s returns, particularly the consistency of those returns and the unrealistic volume

of options Madoff represented to have traded.

       In May 2003, the SEC received a third complaint from a respected hedge fund

manager identifying numerous concerns about Madoff’s strategy and purported returns.

Specifically, the complaint questioned whether Madoff was actually trading options in

the volume he claimed, noted that Madoff’s strategy and purported returns were not

duplicable by anyone else, and stated that Madoff’s strategy had no correlation to the

overall equity markets in over ten years. According to an SEC manager, the hedge fund

manager’s complaint laid out issues that were “indicia of a Ponzi scheme.”




                                             8
        The fourth complaint was part of a series of internal e-mails of another registrant

that the SEC discovered in April 2004. The e-mails described the red flags that a

registrant’s employees had identified while performing due diligence on their own

Madoff investment using publicly-available information. The red flags identified

included Madoff’s incredible and highly unusual fills for equity trades, his

misrepresentation of his options trading, and his unusually consistent, non-volatile returns

over several years. One of the internal e-mails provided a step-by-step analysis of why

Madoff must be misrepresenting his options trading. The e-mail clearly explained that

Madoff could not be trading on an options exchange because of insufficient volume and

could not be trading options over-the-counter because it was inconceivable that he could

find a counterparty for the trading. The SEC examiners who initially discovered the

e-mails viewed them as indicating “some suspicion as to whether Madoff is trading at

all.”

        The SEC received the fifth complaint in October 2005 from an anonymous

informant. This complaint stated, “I know that Madoff [sic] company is very secretive

about their operations and they refuse to disclose anything. If my suspicions are true,

then they are running a highly sophisticated scheme on a massive scale. And they have

been doing it for a long time.” The informant also stated, “After a short period of time, I

decided to withdraw all my money (over $5 million).”

        The sixth complaint was sent to the SEC by a “concerned citizen” in December

2006, and advised the SEC to look into Madoff and his firm as follows:

               Your attention is directed to a scandal of major proportion
               which was executed by the investment firm Bernard L.
               Madoff . . . . Assets well in excess of $10 Billion owned by
               the late [investor], an ultra-wealthy long time client of the


                                             9
                 Madoff firm have been “co-mingled” with funds controlled
                 by the Madoff company with gains thereon retained by
                 Madoff.

          In March 2008, the SEC Chairman’s Office received a second copy of the

previous complaint, with additional information from the same source regarding

Madoff’s involvement with the investor’s money, as follows:

                 It may be of interest to you to that Mr. Bernard Madoff
                 keeps two (2) sets of records. The most interesting of
                 which is on his computer which is always on his person.

          The two 2001 journal articles also raised significant questions about Madoff’s

unusually consistent returns. One of the articles noted his “astonishing ability to time the

market and move to cash in the underlying securities before market conditions turn

negative and the related ability to buy and sell the underlying stocks without noticeably

affecting the market.” This article also observed that “experts ask why no one has been

able to duplicate similar returns using [Madoff’s] strategy.” The second article quoted a

former Madoff investor as saying, “Anybody who’s a seasoned hedge-fund investor

knows the split-strike conversion is not the whole story. To take it at face value is a bit

naïve.”

          The complaints all contained specific information and could not have been fully

and adequately resolved without a thorough examination and investigation of Madoff for

operating a Ponzi scheme. The journal articles should have reinforced the concerns

expressed in the complaints about how Madoff could have been achieving such unusually

high returns.

          According to the FTI engagement team, the most critical step in examining or

investigating a potential Ponzi scheme is to verify the subject’s trading through an




                                              10
independent third party. The OIG investigation found that the SEC conducted two

investigations and three examinations related to Madoff’s investment adviser business

based upon the detailed and credible complaints that raised the possibility that Madoff

was misrepresenting his trading and could have been operating a Ponzi scheme. Yet, at

no time did the SEC ever verify Madoff’s trading through an independent third party and,

in fact, SEC staff never actually conducted a Ponzi scheme examination or investigation

of Madoff.

       The first examination and first Enforcement investigation involving Madoff were

conducted in 1992 after the SEC received information that led it to suspect that a Madoff

associate had been conducting a Ponzi scheme. Yet, the SEC focused its efforts on

Madoff’s associate and never thoroughly scrutinized Madoff’s operations even after

learning that Madoff made all the investment decisions and being apprised of the

remarkably consistent returns Madoff had claimed to achieve over a period of numerous

years with a basic trading strategy. While the SEC ensured that all of Madoff’s

associate’s customers received their money back, it took no steps to investigate Madoff.

The SEC focused its investigation too narrowly and seemed not to have considered the

possibility that Madoff could have taken the money that was used to pay back his

associate’s customers from other clients for which Madoff may have had held

discretionary brokerage accounts. In the examination of Madoff, although the SEC did

seek records maintained by DTC (an independent third party), they obtained those DTC

records from Madoff rather than going to DTC itself to verify if trading occurred. Had

the SEC sought records from DTC, there is an excellent chance it would have uncovered

Madoff’s Ponzi scheme in 1992.




                                            11
       In 2004 and 2005, the SEC’s examination unit, OCIE, conducted two parallel

cause examinations of Madoff based upon the hedge fund manager’s complaint and the

series of internal e-mails the SEC had discovered. The examinations were remarkably

similar in nature. There were initial significant delays in the commencement of the

examinations, notwithstanding the urgency of the complaints. The teams assembled were

relatively inexperienced, and there was insufficient planning for the examinations. The

scopes of the examination were in both cases too narrowly focused on the possibility of

front-running, with no significant attempts made to analyze the numerous red flags about

Madoff’s trading and returns.

       During the course of both these examinations, the examination teams discovered

suspicious information and evidence and caught Madoff in contradictions and

inconsistencies. However, they either disregarded these concerns or simply asked

Madoff about them. Even when Madoff’s answers were seemingly implausible, the SEC

examiners accepted them at face value.

       In both examinations, the examiners made the surprising discovery that Madoff’s

mysterious hedge fund business was making significantly more money than his well-

known market-making operation. However, none of the examiners identified this

revelation as a cause for concern.

       Astoundingly, both examinations were open at the same time in different offices

without either office knowing the other one was conducting a virtually identical

examination. In fact, it was Madoff himself who informed one of the examination teams

that the other examination team had already received the information being sought from

him.




                                           12
       In the first of the two OCIE examinations, the examiners drafted a letter to the

National Association of Securities Dealers (NASD) (another independent third party)

seeking independent trade data, but they never sent the letter, claiming that it would have

been too time-consuming to review the data they would have obtained. The OIG’s expert

opined that had the letter to the NASD been sent, the data collected would have provided

the information necessary to reveal Madoff’s Ponzi scheme. In the second examination,

the OCIE Assistant Director sent a document request to a financial institution that Madoff

claimed he used to clear his trades, requesting trading done by or on behalf of particular

Madoff feeder funds during a specific time period, and received a response that there was

no transaction activity in Madoff’s account for that period. However, the Assistant

Director did not determine that the response required any follow-up and the examiners

working under the Assistant Director testified that the response was not shared with them.

       Both examinations concluded with numerous unresolved questions and without

any significant attempt to examine the possibility that Madoff was misrepresenting his

trading and operating a Ponzi scheme.

       The investigation that arose from the most detailed complaint provided to the

SEC, which explicitly stated it was “highly likely” that “Madoff was operating a Ponzi

scheme,” never really investigated the possibility of a Ponzi scheme. The relatively

inexperienced Enforcement staff failed to appreciate the significance of the analysis in

the complaint, and almost immediately expressed skepticism and disbelief about the

complaint. Most of the investigation was directed at determining whether Madoff should

register as an investment adviser or whether Madoff’s hedge fund investors’ disclosures

were adequate.




                                            13
       As with the examinations, the Enforcement staff almost immediately caught

Madoff in lies and misrepresentations, but failed to follow up on inconsistencies. They

rebuffed offers of additional evidence from the complainant, and were confused about

certain critical and fundamental aspects of Madoff’s operations. When Madoff provided

evasive or contradictory answers to important questions in testimony, the staff simply

accepted his explanations as plausible.

       Although the Enforcement staff made attempts to seek information from

independent third parties, they failed to follow up on these requests. They reached out to

the NASD and asked for information on whether Madoff had options positions on a

certain date. However, when they received a report that there were in fact no options

positions on that date, they did not take any further steps. An Enforcement staff attorney

made several attempts to obtain documentation from European counterparties (another

independent third party) and, although a letter was drafted, the Enforcement staff decided

not to send it. Had any of these efforts been fully executed, they would have led to

Madoff’s Ponzi scheme being uncovered.

       The OIG also found that numerous private entities conducted basic due diligence

of Madoff’s operations and, without regulatory authority to compel information, came to

the conclusion that an investment with Madoff was unwise. Specifically, Madoff’s

description of both his equity and options trading practices immediately led to suspicions

about his operations. With respect to his purported trading strategy, many private entities

simply did not believe that it was possible for Madoff to achieve his stated level of

returns using a strategy described by some industry leaders as common and

unsophisticated. In addition, there was a great deal of suspicion about Madoff’s




                                            14
purported options trading, with several entities not believing that Madoff could be trading

options in such high volumes where there was no evidence that any counterparties had

been trading options with Madoff.

       The private entities’ conclusions were drawn from the same red flags regarding

Madoff’s operations that the SEC considered in its examinations and investigations, but

ultimately dismissed.

       We also found that investors who may have been uncertain about whether to

invest with Madoff were reassured by the fact that the SEC had investigated and/or

examined Madoff, or entities that did business with Madoff, and found no evidence of

fraud. Moreover, we found that Madoff proactively informed potential investors that the

SEC had examined his operations. When potential investors expressed hesitation about

investing with Madoff, he cited the prior SEC examinations to establish credibility and

allay suspicions or investor doubts that may have arisen while due diligence was being

conducted. Thus, the fact the SEC had conducted examinations and investigations and

did not detect the fraud lent credibility to Madoff’s operations and had the effect of

encouraging additional individuals and entities to invest with him.

       We did not, however, find evidence that any SEC personnel who worked on an

SEC examination or investigation of Madoff or his firms had any financial or other

inappropriate connection with Madoff or the Madoff family that influenced the conduct

of the examination or investigatory work. We also did not find that former SEC Assistant

Director Eric Swanson’s romantic relationship with Bernard Madoff’s niece, Shana

Madoff, influenced the conduct of the SEC examinations of Madoff and his firm. We

further did not find that senior officials at the SEC directly attempted to influence




                                             15
examinations or investigations of Madoff or the Madoff firm, nor was there evidence any

senior SEC official interfered with the staff’s ability to perform its work.

       As I discussed earlier, we did find that despite numerous credible and detailed

complaints, the SEC never properly examined or investigated Madoff’s trading and never

took the necessary, but basic, steps to determine if Madoff was operating a Ponzi scheme.

Had these efforts been made with appropriate follow-up at any time beginning in June of

1992 until December 2008, the SEC could have uncovered the Ponzi scheme before

Madoff confessed.

       As a result of our findings, we have recommended that the Chairman carefully

review our report and share with OCIE and Enforcement management the portions of this

report that relate to performance failures by those employees who still work at the SEC,

so that appropriate action (which may include performance-based action) is taken, on an

employee-by-employee basis, to ensure that future examinations and investigations are

conducted in a more appropriate manner and the mistakes and failures outlined in this

report are not repeated.

                                 Additional OIG Reports

       While the report we issued to the Chairman on August 31st describes in detail the

factual circumstances surrounding the Madoff-related complaints received by the SEC

and the SEC’s examinations and investigations of Madoff over the years, my Office plans

to issue three additional reports relating to these matters. Because our investigation

identified systematic breakdowns in the manner in which the SEC conducted its

examinations and investigations, we plan to issue two separate audit reports providing the




                                             16
SEC with specific and concrete recommendations to improve the operations of both

OCIE and Enforcement.

        With respect to recommendations concerning OCIE, our expert, FTI, has

conducted extensive fieldwork to analyze further the adequacy of OCIE’s examinations

of Madoff. The FTI engagement team reviewed our August 31, 2009 Report of

Investigation, as well as related findings, exhibits, witness testimony and other supporting

documentation (i.e., OCIE examination staff work papers), and interviewed over a dozen

key personnel representing OCIE’s broker-dealer, investment adviser and risk assessment

programs. In addition, the FTI Engagement Team reviewed OCIE’s policies and

procedures with regard to its examination processes and other third party records,

including FINRA order and execution data and DTC and NSCC records. The FTI

Engagement Team also was granted access to OCIE’s various Intranet sites, including the

Broker-Dealer, Investment Adviser/Investment Company, Office of Market Oversight,

and Training Branch sites, in order to view its examination policies and procedures.

        The FTI engagement team is currently finalizing a report that will describe its

analysis of OCIE’s examination process and provide numerous “lessons learned” arising

from its analysis, with specific recommendations to improve OCIE’s operations. While

these recommendations are currently in draft status, I can report that the

recommendations we are considering include the following:

    •   Establishing a protocol for SEC examiners to identify relevant information from
        industry news articles and other sources outside of the agency;

    •   Establishing a protocol that explains how to identify red flags and potential
        violations of securities law based on an evaluation of information found in
        industry news articles and other relevant industry sources;




                                             17
•   The implementation of an OCIE-related collection system that adequately
    captures information relating to the nature and source of each tip or complaint
    and also chronicles the vetting process to document why each tip or complaint
    was or was not acted upon and who made that determination;

•   Mandating procedures for review of credible and compelling tips and complaints;

•   Mandating timelines for the vetting of tips and complaints, as well as for the
    commencement of cause examinations;

•   Requiring proper procedures for the use of scope memoranda to ensure that
    examinations conducted in response to tips and complaints that are received are
    not too narrowly focused;

•   Establishing procedures for the timely modification of scope memoranda when
    significant new facts and issues emerge;

•   Ensuring the appropriate review and analysis of planning memoranda for cause
    examinations to ensure that cause examinations are thoroughly planned based
    upon the tip or complaint that triggered the examination;

•   Creating procedures to ensure that all steps of the examination methodology, as
    stated in the planning memorandum, are completed before the examination is
    closed;

•   Requiring the documentation of all substantive interviews conducted by OCIE of
    registrants and third parties during OCIE’s pre-examination activities and during
    the course of an examination;

•   Prescribing procedures for the preparation of workpapers for an OCIE
    examination to ensure sufficient detail to provide a clear understanding of its
    purpose, source, and the conclusions reached;

•   Establishing, reviewing and testing procedures for logging all OCIE
    examinations into an examination tracking system;

•   Ensuring that the focus of an examination is determined in an appropriate and
    thoughtful manner, and not simply based upon on the availability or the skills of
    a particular group of examiners;

•   Ensuring that personnel with the appropriate skills and expertise are assigned to
    cause examinations with unique or discrete needs;

•   Requiring that a Branch Chief, or a similarly-designated lead manager, be
    assigned to every substantive project including all cause examinations;



                                        18
•   Requiring the development of a formal plan within OCIE to ensure that OCIE
    staff and managers are obtaining and maintaining professional designations
    and/or licenses by industry certification programs that are relevant to their
    examination activities;

•   Recommending the development and implementation of interactive exercises to
    be administered by OCIE training staff or an independent third party and
    reviewed prior to hiring new OCIE employees in order to evaluate the relevant
    skills necessary to perform examinations;

•   The training of OCIE examiners in the mechanics of securities settlement, both in
    the United States and in major foreign markets;

•   The training of OCIE examiners in methods to access the expertise of foreign
    regulators, such as the United Kingdom’s Financial Services Authority, as well as
    foreign securities exchanges and foreign clearing and settlement entities;

•   Requiring OCIE examination staff to verify a test sample of trading or balance
    data with counterparties and other independent third parties such as FINRA,
    DTC, or NSCC whenever there are specific allegations of fraud involved in an
    examination;

•   Recommending the training of OCIE examiners jointly with the Office of
    Economic Analysis economists by FINRA, other self-regulatory organizations
    (SROs) and exchange staff in understanding trading databases, regional
    exchanges, option exchanges, and DTC/NSCC, etc.;

•   Ensuring that OCIE staff have direct access to certain databases maintained by
    SROs or other similar entities in order to allow examiners to access necessary
    data for verification or analysis of registrant data;

•   Mandating procedures to ensure that when an examination team is pulled off an
    examination for a project of higher priority, the examination team return to the
    previous examination upon completion of the other project and bring the prior
    examination to a conclusion;

•   Implementing procedures for tracking the progress of all cause examinations,
    including the number of cause examinations opened, the number ongoing and the
    number closed for each month; and

•   Requesting OCIE management provide express support to their examiners
    regarding the examiners’ pursuit of evidence in the course of an examination,
    even if pursuing that evidence requires contacting customers or clients of the
    target of that examination.




                                       19
        We are also finalizing a report that analyzes “lessons learned” from the

investigations conducted by the SEC’s Enforcement Division of Madoff and prescribes

concrete recommendations for improvement within Enforcement. For this analysis, we

launched an extensive survey questionnaire to Enforcement staff and management in both

headquarters and the regional offices. This survey was designed to obtain feedback from

Enforcement staff on numerous topics, such as allocation of resources, performance

measurement, case management procedures, communication, adequacy of policies and

procedures, employee morale, and management efficiency and effectiveness.

       The Enforcement-related recommendations that we are currently considering

include the following:

   •   Establishing formal guidance for evaluating various types of complaints (e.g.,
       Ponzi schemes) and training of appropriate staff on the use of such guidance;

   •   Ensuring that the SEC’s tip and complaint handling system provides for data
       capture of relevant information relating to the vetting process to document why a
       complaint was or was not acted upon and who made that determination;

   •   Requiring tips and complaints to be reviewed by individuals experienced in the
       subject matter to which the complaint or tip relates, prior to a decision not to take
       further action;

   •   Establishing guidance to require that all complaints that appear on the surface to
       be credible and compelling be probed further by in-depth interviews with the
       sources to assess the complaints’ validity and to determine what issues need to be
       investigated;

   •   The training of staff to ensure they are aware of the guidelines contained in
       Section 3 of the Enforcement Manual and Title 17 of the Code of Federal
       Regulations, Section 202.10, for obtaining information from outside sources;

   •   Requiring annual review and testing of the effectiveness of Enforcement’s
       policies and procedures with regard to its tip and complaint handling system;

   •   Implementing procedures to ensure that investigations are assigned to teams
       comprised of individuals who have sufficient knowledge of the pertinent subject
       matter (e.g. Ponzi schemes);


                                            20
   •   The training of staff on what resources and information are available within the
       Commission, including how and when assistance from internal units should be
       requested;

   •   Mandating that planning memoranda be prepared at the beginning of an
       investigation and that the plan include a section identifying what type of expertise
       or assistance is needed from others within and outside the Commission;

   •   Requiring that after the planning memorandum is drafted, it be circulated to all
       team members assigned to the investigation, and all team members then meet to
       discuss the investigation approach, methodology and any concerns team members
       wish to raise;

   •   Conducting periodic internal reviews of any newly-implemented policies and
       procedures related to information sharing with divisions and offices outside of
       Enforcement to ensure they are operating efficiently and effectively and necessary
       changes are made;

   •   Requiring that the planning memoranda and associated scope, methodology and
       time frames be routinely reviewed by an investigator’s immediate supervisor to
       ensure investigations remain on track and to determine whether adjustments in
       scope, etc. are necessary;

   •   Ensuring that sufficient resources, both supervisory and support, are dedicated to
       investigations up front to provide for adequate and thorough supervision of cases
       and effective handling of administrative tasks;

   •   Establishing policies and procedures to ensure staff have an understanding of
       what types of information should be validated during investigations with
       independent parties such as FINRA, DTC and the Chicago Board Options
       Exchange;

   •   Updating Enforcement’s complaint handling procedures to ensure complaints
       received are properly vetted even if an investigation is pending closure; and

   •   Conducting periodic internal reviews to ensure that Matters Under Inquiry (MUIs)
       are opened in accordance with any newly-developed Commission guidance and
       examining ways to streamline the case closing process.

       Both of these reports containing recommendations to OCIE and Enforcement

will be finalized and issued within the next few weeks. We also plan to issue an

additional report analyzing the reasons that OCIE’s investment adviser unit did not



                                            21
conduct an examination of Madoff after he was forced to register as an investment

adviser in 2006, and prescribing recommendations as appropriate to improve this process.

We plan to issue this report by the end of November 2009.

       My Office is committed to following up with respect to all the recommendations

that we will be making to ensure that significant changes and improvements are made in

the SEC’s operations as a result of our findings in the Madoff investigation. We are

aware that improvements have already been begun under the direction of Chairman

Schapiro even prior to our report being issued. We are confident that under Chairman

Schapiro’s leadership, the SEC will carefully review our analyses and reports and take

the appropriate steps to implement our recommendations and ensure that fundamental

changes are made in the SEC’s operations so that the errors and failings we found in our

investigation are properly remedied and not repeated in the future.

                                       Conclusion

       In conclusion, we appreciate the Chairman’s and the Committee’s interest in the

SEC and our Office and, in particular, in the facts and circumstances pertinent to the

Madoff Ponzi scheme. I believe that the Committee’s and Congress’s continued

involvement with the SEC is helpful in strengthening the accountability and effectiveness

of the Commission. Thank you.




                                            22
